                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM




                 In the course of a review of expenditures under selected conference grants, we requested
         records fiom an institution' for expenditures under an NSF awardV2The proposal requested $10,000
         in travel expenses for graduate students and invited speakers to attend a conference to be held in
         2001. The records provided showed that grant funds were used for attendance at the 2001
         conference, but $3,212 was used for travel expenses for graduate students to attend two conferences
         in 2002. Because neither 2002 conference was within the explicit scope of this grant as set out in the
         proposal, and neither was mentioned in the final report filed by the PI, we asked the institution to
         justifL charging these costs to this grant.

                  In response, the institution urged that the general "goal of the grant . . . as stated in the
         proposal, was to 'attract and excite young researchers in the field," and that attendance at the 2002
         conferences "was in my determination consistent with the scope of this grant. . . . I feel [the
         institution] acted in good faith to maximize the benefit of the funds during both the initial and no-
         cost extension period of performance of the grant in accordance with it's [sic] purpose."

                We found the institution's response to be adequate to explain the relatedness of the
          expenditures to the purpose of the grant; accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
